DOL F 1325.8
   (8-89)
 EFG (07-90)


United States Government                                                                    Department of Ena


memorandum
           DATE:   January 22, 2003                                     Audit Report No.: OAS-L-03-09
      REPLY TO
      ATTN OF:     IG-34 (A02PT033)

      SUBJECT:     Review of the Department's Administration of Financial Instruments

               TO: Director/Chief Financial Officer, Office of Management, Budget, and Evaluation, ME-1


                   The purpose of this report is to inform you of the results of our review of the
                   Department of Energy's (Department) administration of financial instruments. The
                   review was initiated in September 2002 and fieldwork was conducted through
                   December 2002 at Department Headquarters, the National Energy Technology
                   Laboratory (NETL) and the Oak Ridge National Laboratory (ORNL). Our
                   methodology is described in the attachment to this report.

                   INTRODUCTION AND OBJECTIVE

                   The Department spent over $20 billion in Fiscal Year 2001 on energy resources,
                   national nuclear security, environmental quality, science and corporate management. In
                   conducting these programs, the Department established a decentralized structure of
                   program offices, field sites, national laboratories and management contractors. Because
                   tasks are often distributed among various sites and contractors, funds are frequently
                   transferred among organizations. Each of these transfers can add indirect and overhead
                   costs to the project or task to be accomplished. The objective of our audit was to
                   determine whether charges assessed for administering contracts and other award
                   instruments were appropriate..

                   CONCLUSIONS AND OBSERVATIONS

                   Based on our limited review at NETL and ORNL, we determined that charges for
                   administering subcontracts and other financial instruments appeared to be reasonable.
                   Because of the limited scope of our review, we did not determine whether the total
                   costs for subcontract or financial instrument administration were reasonable or
                   appropriate.
Since no recommendations are being made in this report, a formal response is not
required. We appreciated the cooperation of your staff throughout the audit.




                                     Rickey R. Hass, Director
                                     Science, Energy, Technology,
                                       and Financial Audits
                                     Office of Audit Services
                                     Office of Inspector General

Attachment

cc: Team Leader, Audit Liaison, ME-2.1




                                          2
                                                                               Attachment


METHODOLOGY

To accomplish the audit objective, we:

    *   Reviewed DOE Accounting Handbook and Accounting Guidance relating to
        fund transfers and indirect costs;

    *   Reviewed Cost Accounting Standards Board Disclosure Statement - Part IV
        Indirect Costs for various laboratories to determine the Department's approved
        application of its contractors' indirect rates;

    *   Reviewed and analyzed current indirect rates that laboratories charge to
        determine if rates appeared appropriate;

    *   Reviewed, sampled and analyzed National Energy Technology and Oak Ridge
        National Laboratories approved funding programs and inter-contractor
        purchases processes to determine the appropriateness of the rates being used and
        the methodology by which the rates were applied; and

    *   Held discussions and collected data from appropriate Department and contractor
        officials to determine their methodologies and justifications for indirect rates
        being applied.

We conducted the audit according to generally accepted government auditing standards
for performance audits and included tests for internal controls and compliance with
laws and regulations to the extent necessary to satisfy the audit objective. Accordingly,
we assessed the Department's internal controls with regard to the charging of indirect
rates to subcontracts. Because our review was limited, it would not necessarily have
disclosed all internal control deficiencies that may have existed at the time of our audit.
Our audit was focused on charging indirect rates to subcontracts and as a consequence
we did not evaluate any other aspect of the underlying accounting system. We did not
rely on computer generated data, therefore, we did not assess data reliability.
Management waived the exit conference.
DOE F 1325.8
  (8-89)
EFG (07-90)


United States Government                                                                        Deoartment of Energy

memorandum
           DATE:
                     jAN 2 8 2003
                     DA

      REPLY TO
       ATTN OF:      IG-34 (A02PT033)
      SUBJECT:       Final Report Package for "Department's Administration of Financial Instruments"
                     Audit Report Number: OAS-L-03-09
               TO:   Frederick D. Doggett, Deputy Assistant Inspector General for Audit Services

                     Attached is the required final report package on the subject audit. The pertinent details are:

                          1. Actual Staff days:     135
                             Actual Elapsed days: 134

                          2. Names of OIG and/or contractor audit staff:

                             Assistant Director:    George W. Collard
                             Team Leader:           Robert W. Lewandowski
                             Auditor-in-Charge:     George G. Daugherty
                             Audit Staff:           Thomas M. Barwatt
                          3. Coordination with Investigations and Inspections:
                             Investigations:        Yvette Milam - September 23, 2002
                             Inspections:           Henry Minner - September 25, 2002




                                                               Ricke R. Hass, Director
                                                               Science, Energy, Technology,
                                                                 and Financial Audits
                                                               Office of Audit Services
                                                               Office of Inspector General
                     Attachments:
                     1. Final Report (3)
                     2. Monetary Impact Report
                     3. Audit Project Summary Report
                     4. Audit Database Information Sheet
                                                                                                                Attachment 2

                            MONETARY IMPACT OF REPORT NO.: OAS-L-03-09


      1. Title of Audit:   "Department's Administration of Financial Instruments"

      2. Division:         Science, Energy, Technology, and Financial Audits

      3. Project No.:      A02PT033

      4. Type of Audit:

           Financial:                                          Performance:       X
             Financial Statement                                 Economy and Efficiency                          X
             Financial Related                                   Program Results
           Other (specify type):

5.

                                                                                                            MGT.      POTENTIAL
         FINDING                   BETTER USED                           QUESTIONED COSTS                 POSITION     BUDGET
                                                                                                                       IMPACT
                                            Recurring
(A)            (B)          (C)      (D)       (E)      (F)        (G)           (H)         (I)             (J)         (K)
              Title        One     Amount     No.      Total    Questioned   Unsupported    Total         C=Concur      Y=Yes
                           Time      Per      Yrs.    Amount     Portion       Portion                    N=Noncon      N=No
                                    Year                                                                  U=Undec

             None          N/A      N/A       N/A      N/A         N/A          N/A         N/A                 N/A      N/A




TOTALS--ALL FINDINGS        $0       $0       $$0      $           $0            $0          $0




 6. Remarks: There is no current monetary impact or potential future savings.

7. Contractor:                                      10. Approvals:              /
8. Contract No.: _____t                                 Division Director & Date/                          ',
9. Task Order No.:                                      Technical Advisor & Date                    Clw
                                            Office of the Inspector General (OIG)
                                      Audit Project Office                     Summary (APS)                       Attachment 3
                                                                                                                      Page 1
Report run on:                  January 23,        2003 8:27 AM


  Audit#: A02PT033             Ofc:   PTA     Title: ADMINISTRATION FINANCIAL INSTRUMENTS BY LABS

                                                          ****    Milestones     ****.
                                                                    P-----
                                                                     lanned    ---------------            Actual
                                             Profile             End of Survey          Revised

   Entrance Conference:                 06-SEP-02                 10-SEP-02         10-SEP-02         10-SEP-02

   Survey Completed:                    06-NOV-02                 16-JAN-03          16-JAN-03       . 16-JAN-03

   Field Work Complete:
   Draft Report Issued:
   Exit Conference:
   Completed with Report:               15-MAR-03                 16-JAN-03          16-JAN-03        22-JAN-03     (R
   ---------    Elapsed Days                      190                    128                               134
   ----------    Staff Days:                      225                      0                               135

   Date Suspended:                                           Date Terminated:
   Date Reactivated:                                          Date Cancelled:
   DaysSuspended(Cur/Tot) :                 0 (             ) Report Number:        OAS-L-03-09
   Rpt Title:        REVIEW OF THE DEPARTMENT'S ADMINISTRATION OF FINANCIAL INSTRUMENTS

                                            S****Audit        Codes and Personneli ***

   Aud Type: EAE       ECONOMY & EFFICIENCY
   Category: MPA       MULTIPROGR. ACTIVITY                              AD:         376   LEWANDOWSKI
   DOE-Org: HFM        HEADQUARTERS, FINANC                              AIC:     500      DAUGHERTY
   Maj Iss:  009       CONTRACT/GRANT ADMIN                              HDQ-Mon: 421      SCHULMAN
   Site:        MSA MULTI-SITE AUDIT                                     ARM:       459    COLLARD

                                                     **Task Information ****

          Task No:
          Task Order Dt:                                    CO Tech. Rep:
          Orig Auth Hrs:                                    Orig Auth Costs:
          Current Auth:                                     Current Auth Cost':
          Tot Actl IPR Hr:                                  Tot Actl Cost:


                                                     S***    Time Charges ****

                     Emp/Cont Name            Numdays                Last Date

                     WILSON,   A                     .6              11-JAN-03
                     LEWANDOWSKI, R                 9.9              11-JAN-03
                     DAUGHERTY, G                 49.8               28-DEC-02
                     BARWATT, T                   74.6               11-JAN-03
                     Total:                       134.9
                                                                          Attachment 4

                      AUDIT DATABASE INFORMATION SHEET


1. Project No.: A02PT033

2. Title of Audit: Department's Administration of Financial Instruments

3. Report No./Date: OAS-L-03-09/January 22, 2003

4. Management Challenge Area: Contract Administration

5. Presidential Mgmt Initiative: No specific initiative

6. Secretary Priority/Initiative: No specific initiative

7. Program Code: ME

8. Location/Sites: Headquarters, NETL and ORNL

9. Finding Summary: No findings. This was a letter report.

10. Keywords: financial instruments
              indirect rates
              inter-contractor purchases
